No. 20-86

In the
Supreme Court of the United States

Charles Daniels, Director,
Nevada Department of Corrections, et al.,
Petitioners,
v.
Ronald Ross,
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
Respondent’s Brief in Opposition

Rene Valladares
Federal Public Defender,
District of Nevada
*Jonathan M. Kirshbaum
Assistant Federal Public Defender
411 E. Bonneville Ave., Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
Jonathan_Kirshbaum@fd.org
*Counsel of Record for Ronald Ross

Q U E S TI O N P R E S E N TE D
Whether the claims in Ross’s counseled amended petition relate back to the
timely-filed original pro se petition because Ross set out or attempted to set out claims
in his original petition by identifying specific grounds for relief in his original petition
and attaching a state court opinion that provided greater detail about the facts
supporting those claims?

ii

T A BL E

OF

C O N TE N TS

Question Presented........................................................................................................ ii
Statement of the Case ................................................................................................... 1
A.

Federal District Court Proceedings ......................................................... 1

Reasons for Denying the Petition.................................................................................. 8
I.

There is no circuit split on this issue. ................................................................ 8

II.

Petitioners’ arguments are wrong and do not present a compelling
justification for certiorari.................................................................................... 9

III.

A.

The en banc opinion is correct ............................................................... 10

B.

Petitioners’ arguments that the opinion is inconsistent with Mayle
are not valid ............................................................................................ 13

This case is not a good vehicle for this Court’s review .................................... 18

Conclusion .................................................................................................................... 20

iii

T A BL E

OF

A U TH O R ITI E S

Cases
Dean v. United States, 278 F.3d 1218 (11th Cir. 2002) ...................... 8-9
Dye v. Hofbauer, 546 U.S. 1 (2005) ....................................................... 10
Foman v. Davis, 371 U.S. 178 (1962) ............................................... 19-20
Mayle v. Felix, 545 U.S. 644 (2005) ............................................. 9, 10, 13
McClellon v. Lone Star Gas Co., 66 F.3d 98 (5th Cir. 1995) .................. 9
Schiavone v. Fortune, 477 U.S. 21 (1986) ........................................ 12-13
Slack v. McDaniel, 529 U.S. 473 (2000) ................................................ 19
Statutes
28 U.S.C. § 2254 ............................................................................. passim
Federal Rules
Fed. R. Civ. P. 10 .......................................................................... passim
Fed. R. Civ. P. 15 ........................................................................... passim
Rule 2, Rules Governing 28 U.S.C. § 2254 Proceedings ............... passim
Rule 4, Rules Governing 28 U.S.C. § 2254 Proceedings ................. 11, 12
Other Authorities
Habeas R. 2 Advisory Committee’s notes .............................................. 11
Wright & Miller § 1497 .......................................................................... 12

iv

STATEMENT

O F TH E

CASE

In an eight to three en banc decision, the Ninth Circuit concluded that, under
Federal Rules of Civil Procedure 10(c) and 15(c)(1)(B), a habeas petitioner can relate
back claims in an amended petition to an original pro se petition where the petitioner
set out, or attempted to set out, claims in the original petition by identifying specific
grounds for relief in the original petition and attaching a state court opinion that
provides greater detail about the facts supporting those claims. See Petitioner’s
Appendix (“Pet. App.”) 14.
In their petition for a writ of certiorari, Petitioners provided a skeletal account
of what occurred in federal court. They do not raise any challenges to the lower court’s
factual findings. Ross presents this counterstatement because a more detailed
account is necessary to demonstrate why the en banc decision is correct.
A.

Federal District Court Proceedings

On September 14, 2014, Ross filed a pro se federal petition pursuant to 28
U.S.C. § 2254 in the District of Nevada using the district’s standard petition form.
Brief In Opposition Appendix (“BIO App.”) 2. The petition challenged Ross’s theftrelated convictions based on allegations he participated in a distraction theft in a
casino and the unauthorized use of a credit card for which he was sentenced, as a
habitual offender, to 20 years to life in prison. BIO App. 2, 17.
In relevant part, Ross identified his Sixth Amendment right to counsel as the
constitutional basis for his claims. BIO App. 6. Where the form inquired about the
facts on which he based those claims, Ross provided a list of alleged deficiencies in
1

his trial counsel’s performance. Id. The list stated that trial counsel (1) “failed to
secure a speedy trial”; (2) “failed to review evidence prior to trial and adequately
prepare”; (3) “failed to file pretrial motions”; (4) “failed to address the prejudice of
evidence lost prior to trial”; (5) “failed to prepare for . . . jury selection” because
counsel “attempted to force a deal”; (6) “failed to prepare for . . . trial,” again because
counsel “attempted to force a deal”; (7) “failed to retain defense experts for . . . trial”;
and (8) “failed to object to the State’s use of [an] expert witness.” Id.
Although Ross did not include any further facts on the petition form, he
appended an affidavit stating, among other things, that the Nevada Supreme Court
had affirmed the denial of his state postconviction relief petition. BIO App. 11-12.
The affidavit included the notation, “see attached order.” Id. Ross then attached that
order as exhibit A to his petition, directly following the affidavit. Id. On that same
day, Ross also filed a “request” for, among other things, leave to amend. BIO App. 1.
It stated, “Petitioner incorporates by reference and fact, the attached Affidavit in
support of this motion, and writ, with attached exhibits.” Id.
The attached six-page Nevada Supreme Court order enumerated and
discussed in detail many of Ross’s claims. For example, the order described Ross’s
allegations trial counsel was ineffective for:
(A) “failing to engage in pretrial discovery,” which would
have enabled counsel to obtain a surveillance video;
(B) “violating [Ross’s] right to a speedy trial”;
(C) allowing “a communication breakdown [that] prevented
[Ross] from being able to assist counsel in the preparation
2

of his defense”;
(D) “failing to object to expert testimony pertaining to
pickpockets and distraction thefts where the witness was
not noticed as an expert”;
(E) “failing to retain a defense expert to rebut the expert
testimony” about pickpockets and distraction thefts;
(F) “failing to properly challenge the use of a preliminaryhearing transcript in lieu of live testimony” or to “mak[e]
an offer of proof as to what additional questions counsel
would have posed to a live trial witness”;
(G) “failing to renew at trial [Ross’s] preliminary-hearing
objection” concerning testimony about a surveillance video
on the grounds that the testimony “violat[ed] the best
evidence rule”; and
(H) “failing to raise certain objections during the State’s
closing arguments and at sentencing and . . . failing to
move postverdict to dismiss the case for lack of evidence.”
BIO App. 16-20.
While the claims Ross listed in his original pro se federal petition don’t match
up one-to-one with the Nevada Supreme Court’s list of his claims, there’s substantial
overlap. For example, in his original federal petition, Ross listed one of his trial
counsel ineffectiveness claims as challenging how his attorney “failed to object to the
State’s use of [an] expert witness.” BIO App. 6. Likewise, the Nevada Supreme Court
described how Ross alleged his attorney was ineffective for “failing to object to expert
testimony pertaining to pickpockets and distraction thefts where the witness was not
noticed as an expert.” BIO App. 17.

3

Ross’s original pro se petition was timely filed, as his one-year time period did
not expire until October 27, 2014. Pet. App. 11 n. 2. The district court reviewed the
petition and, on November 25, 2014, after the limitations period had expired,
appointed counsel to file an amended petition. See BIO App. 24-25.
On June 8, 2015, with the assistance of appointed counsel, Ross filed an
amended petition raising, among others, the following eight ineffective assistance of
counsel claims: (I) failure to protect Ross’s right to a speedy trial; (II) failure to
communicate with Ross prior to trial; (III) failure to seek an appropriate sanction
based on a discovery violation; (IV) failure to object based on the best evidence rule;
(V) failure to object to expert testimony; (VI) failure to call a defense expert; (VII)
failure to object to the admission of preliminary hearing testimony based on the
State’s inability to establish the witness’s unavailability; and (VIII) failure to raise
mitigating arguments at sentencing against the imposition of a habitual offender
sentence. Pet. App. 9-10.
The State moved to dismiss the amended petition as untimely because it was
filed after the one-year statute of limitations had run. They argued the claims in the
amended petition did not relate back to claims in the timely, original pro se petition
because the original petition lacked factual allegations. Pet. App. 10. Ross opposed
dismissal, arguing that his amended petition included the necessary facts because
the Nevada Supreme Court order was attached to the original petition. Id. The
district court granted the motion, reasoning that Ross had not included any facts in

4

his original form petition and had not sufficiently incorporated by reference the state
court opinion. Pet. App. 10-11.
Ross timely appealed to the Ninth Circuit. Pet. App. 11. On appeal, he argued
that, as an attached written instrument, the state court opinion should be considered
a part of the petition under Civil Rule 10(c) for relation back purposes.1 Pet. App. 68.
A three-judge panel of the Ninth Circuit rejected this argument. Id. In a two to
one published opinion, the panel majority held a petitioner cannot relate back to
operative facts in an exhibit attached to an original petition unless the petitioner
explicitly incorporated the exhibit into the original petition by making “clear and
repeated” references to the exhibit in the petition itself. Pet. App. 69-70, 81-82.
Senior District Court Judge John D. Bates, sitting by designation from the
District Court of the District of Columbia, dissented. He explained the court should
liberally construe Ross’s original pro se petition as setting out the facts discussed in
the attached state court decision. Pet. App. 83. He argued that, where the factual
bases of Ross’s legal claim were plain from the face of the attachment to his pro se
petition, Ross’s failure to explicitly incorporate those facts into his form petition was
precisely the kind of “technical mistake” courts generally don’t hold against pro se
petitioners. Pet. App. 86. He concluded, “Where, as here, a state-court decision
denying postconviction relief is attached as an exhibit to a pro se habeas petition and

The Federal Rules of Civil Procedure will be referred to as “Civil Rule,” while
the Rules Governing Section 2254 Petitions in the District Courts will be referred to
as “Habeas Rule.”
5
1

the petition lists claims that correspond to the claims addressed in that decision,
principles of liberal construction require that the facts discussed in the decision be
construed as ‘set out’ in the petition for purposes of relation back under Rule 15(c).”

Id.
Ross sought rehearing en banc, asking the court to adopt either Judge Bates’s
liberal construction approach or the rules-based approach Ross had originally
advanced on appeal. See Ross v. Williams, No.16-16533, Entry No. 39-1. The court
granted the petition, vacated the original panel decision, and reheard the case en
banc.
In an eight to three en banc decision, the Ninth Circuit adopted the rule-based
approach. Pet. App. 12. The en banc court concluded that, under Civil Rule 10(c) and
15(c)(1)(B), both of which this Court has held applies to habeas petitions, a habeas
petitioner can relate back claims in an amended petition to an original pro se petition
when the petitioner set out, or attempted to set out, claims in the original petition by
identifying specific grounds for relief in the original petition and attaching a state
court opinion that provides greater detail about the facts supporting those claims.

See Pet. App. 14. The en banc court stated that, “for all purposes,” including relation
back, the original petition consisted of the petition itself and any “written instrument”
that was attached as an exhibit. Pet. App. 14-15. It added that a state court opinion
qualifies as a written instrument for the purposes of Civil Rule 10(c). Pet. App. 15.
The en banc court then explained the two steps for determining whether an
amended petition relates back to an original petition that relied on an appended
6

written instrument to help set forth the facts on which the claims were based. Pet.
App. 15. First, a court determines what claims the amended petition alleges and what
core facts underlie those claims. Id. Second, for each claim, the court looks to the body
of the original petition and its exhibits to see whether the original petition “‘set out’
or ‘attempted to . . . set out’ a corresponding factual episode, see Fed. R. Civ. P.
15(c)(1)(B)—or whether the claim is instead ‘supported by facts that differ in both
time and type from those the original pleading set forth.’” Id. (quoting Mayle v. Felix,
545 U.S. 644, 650, 664 (2005)). The en banc court stated, “The central question under
this framework is whether the amended and original petitions share a common core
of operative facts, as those facts are laid out in the amended petition and ‘attempted
to be set out’ in the original petition.” Pet. App. 16.
Applying that framework to Ross’s case, the en banc court concluded Ross’s
original form petition and attached exhibit contained core facts to which claims in his
amended petition related back. Pet. App. 17. As an “obvious example,” the en banc
court pointed to the claim in the amended petition asserting ineffectiveness based on
counsel’s failure to object to the lack of notice of expert testimony on distract thefts.

Id. The en banc court stated that, in the original form petition, Ross listed as one of
his claims the similar contention that “‘counsel . . . failed to object to the State’s use
of [an] expert witness.’” Id. And the attached state court opinion provided the
operative facts for the claim, specifically addressing a claim that “counsel was
ineffective for failing to object to expert testimony pertaining to pickpockets and
distraction thefts where the [State’s] witness was not noticed as an expert.” Id. The
7

en banc court concluded that a comparison of the claims “clearly reveals a common
core” of operative facts. Id. The court declined to conduct a claim-by-claim relation
back analysis for each claim in the amended petition and instead instructed the
district court to perform that analysis on remand. Pet. App. 28
The three-judge dissent, which consisted of the two judges from the original
panel’s majority opinion and only one new judge, asserted a position similar to the
original panel majority, namely that a petitioner must specifically incorporate an
exhibit into the original petition through clear and repeated references in order to
rely on that exhibit for relation back purposes. Pet. App. 29-51.

REASONS
I.

FOR

D E N Y IN G

TH E

P E TI TI O N

There is no circuit split on this issue.
Petitioners make absolutely no effort to identify a circuit split on this issue. It

does not appear one exists. Respondent is not aware of any contrary decisions from
any other circuit. The Ninth Circuit appears to be the first circuit court to address
the specific situation presented here. To the extent there are any related decisions on
this issue, those decisions are not inconsistent with the Ninth Circuit’s opinion; if
anything, they are more permissive in allowing relation back to insufficiently pled
petitions. See Dean v. United States, 278 F.3d 1218, 1222 (11th Cir. 2002) (per curiam)
(concluding that claims in an amended habeas petition could relate back to claims in
an original petition that expressly omitted supporting facts if the claims arose out of
the same specific conduct or occurrence); see Pet. App. 20 & 20 n.9 (citing Dean); see
8

also McClellon v. Lone Star Gas Co., 66 F.3d 98, 102 (5th Cir. 1995) (allowing relation
back to original complaint that “obviously did not conform with the pleading
requirements of [R]ule 8”).
The lack of any circuit court authority on this issue—much less a split of
authority—demonstrates the unusual nature of this issue, which occurs so
infrequently that this Court need not intervene. In Ross’s case, this unique relation
back argument arose because Ross had filed a timely but unprofessionally pled
petition, and counsel was not appointed to represent Ross until after the one-year
time period had expired. Because this situation—where the unprofessionally pled
original pro se petition was timely filed and the fully-pled amended petition must
necessarily be filed outside the one-year time period—is relatively unusual, other
circuit courts have not needed to address relation back in this context, which
demonstrates why certiorari is unnecessary.
II.

Petitioners’ arguments are wrong and do not present a compelling
justification for certiorari
Petitioners’ primary argument for seeking review from this Court is that the

en banc opinion is inconsistent with this Court’s prior decision in Mayle v. Felix, 545
U.S. 644 (2005). For reasons discussed below, the en banc opinion is not in any way
inconsistent with Mayle. To the contrary, the opinion is consistent with this Court’s
prior case law, the Habeas Rules, and the Civil Rules. Petitioners’ complaints about
the en banc opinion are nothing more than disguised merits arguments on the ways
they believe the en banc opinion got the analysis wrong. But this Court typically does
9

not grant certiorari just to review a lower court decision on those grounds. In any
event, as shown below, Petitioners’ reasons for this Court’s review are not valid.
A.

The en banc opinion is correct

The en banc opinion faithfully followed this Court’s prior precedent and
appropriately harmonized the Habeas Rules and the Civil Rules. The court began its
analysis by explaining that, in addition to a statute specifically incorporating Civil
Rule 15 into habeas procedure, this Court has held that relation back under Rule 15
applies to habeas proceedings, see Mayle, 544 U.S. at 656-64, as do the pleading
provisions of Civil Rule 10(c), see Dye v. Hofbauer, 546 U.S. 1, 4 (2005). Pet. App. 1214.
Civil Rule 15(c)(1)(B) allows for relation back when “the amendment asserts a
claim . . . that arose out of conduct, transaction, or occurrence set out—or attempted
to be set out—in the original pleading.” Civil Rule 10(c) provides, “A copy of a written
instrument that is an exhibit to a pleading is a part of the pleading for all purposes.”
Relying upon a straightforward reading of these two Civil Rules, the en banc
court concluded that a petitioner can relate back to an original petition where the
petitioner set out or “attempt[ed] to set out” habeas claims by identifying specific
grounds for relief and attaching a court decision that provides greater detail about
the facts supporting those claims. Pet. App. 14. Consistent with this Court’s finding
in Dye, the en banc court concluded the attached state court opinion, like a brief,
qualified as a written instrument under Civil Rule 10(c). Pet. App. 15, 18-19.
The en banc court explained how this rule was consistent with the Habeas
10

Rules. In the first instance, the en banc court pointed out that the standard form
required Ross to attach the state court opinion to the petition. Pet. App. 24. As the en
banc court noted, Habeas Rule 4 explicitly directs a federal court to consider both the
petition “and any attached exhibits” in its initial screening of a petition. Id. The
Advisory Committee Notes to the rule more specifically identify state court opinions
as an attachment the court should consider. Id. As the en banc court noted, reviewing
a state court order is a standard part of the habeas review process. Id.
Moreover, the en banc court explained that its relation back rule was not
inconsistent with the “particularity-in-pleading” standard of Habeas Rule 2(c). Pet.
App. 26. It explained that, when a petitioner files an insufficiently pled petition, the
Advisory Committee Note to Habeas Rule 2 instructs the district court “must accept
and file the defective petition, and in appropriate circumstances ‘require the
petitioner to submit a corrected petition that conforms to Rule 2(c).’” Id. (quoting
Habeas R. 2(c) advisory committee’s note to 2004 amendment). It said that this was
a change from an earlier version of Habeas Rule 2, which had permitted a court to
return an insufficient petition to the petitioner without filing it. Id. But after the
enactment of AEDPA’s one-year statute of limitations, the Advisory Committee
cautioned that rejecting and declining to file an insufficient petition “‘may pose a
significant penalty for a petitioner, who may not be able to file another petition . . .
within the limitations period.’” Id. (quoting Habeas R. 2(c) Advisory Committee’s note
to 2004 amendment).
The en banc court concluded that, rather than retroactively prejudicing a
11

petitioner who filed a timely but insufficiently pled petition, the Habeas Rules
support the “commonsense” approach of having a district court accept original
petitions and then enforce Rule 2(c) by requiring petitioners to make any necessary
adjustments through the amendment process. Pet. App. 26-27. “Indeed, a key purpose
of Rule 15 is to permit pleading deficiencies to be fixed through amendment.” Pet.
App. 21 (citing Wright & Miller § 1497). As the en banc court explained in a footnote,
this is precisely how the Habeas Rule 4 screening process—during which the court
must review both the petition and any attachments—is meant to be used. Pet. App.
27 n.18. That is what essentially occurred here with Ross. At the Habeas Rule 4
screening stage, the court reviewed the petition and its attachments and then
appointed counsel to file an amended petition, presumably to fix the deficiencies in
the original petition.
The en banc opinion adopts a workable standard for district courts to apply.
The en banc court’s rule requires a petitioner to meet the requirements of the Civil
Rules in order to support relation back. The timely-filed original petition must at
least attempt to plead specific legal claims. If such an attempt was made, a petitioner
can argue that an attached state court opinion can provide the operative facts for
those claims. Federal courts routinely engage in this type of relation back analysis.
Further, federal judges regularly consult opinions attached to a habeas petition as
part of the Habeas Rule 4 screening process. There is nothing burdensome or unusual
about the en banc court’s holding. To the contrary, it is a commonsense approach
consistent with the intended purpose of procedural rules. See Schiavone v. Fortune,
12

477 U.S. 21, 27 (1986) (noting “principal function of procedural rules should be to
serve as useful guides to help, not hinder, persons who have a legal right to bring
their problems before the court”).
B.

Petitioners’ arguments that the opinion is inconsistent with
Mayle are not valid

Petitioners’ primary argument is the en banc opinion is inconsistent with
Mayle because Mayle requires any interpretation of Civil Rule 15(c) to be “strict” and
“narrow” in light of the Habeas Rules and the policy underlying the statute of
limitations. Petition at 8.
Preliminarily, this is an unjustifiably overbroad reading of Mayle. In Mayle,
the Supreme Court looked to the heightened pleading requirements of Habeas Rule
2 and the policy underlying the statute of limitations to determine the scope of the
term “conduct, transaction, or occurrence” in Civil Rule 15(c). Mayle, 545 U.S. at 65556. The habeas petitioner in Mayle argued for a broad understanding of a term that
would encompass an entire trial; in other words, if a petitioner pled one claim raising
an alleged trial error, the petitioner could then file new untimely amended petitions
raising different trial errors and relate those new claims back to the original petition,
under the view that the trial was the single underlying occurrence. The Court rejected
that argument, instead treating each alleged trial error as a distinct occurrence. In
support of that conclusion, the Court noted that under Habeas Rule 2, legal claims in
a § 2254 petition have to be pleaded “discretely.” Id. at 661. This view of Rule 2 limited
the scope of what qualified as an “occurrence” for relation back. Id.
13

That was the extent of the Court’s reliance on any broader habeas principles.
Nowhere in Mayle did the Court limit how relation back under Civil Rule 15(c) would
apply to a habeas petition, much less how it would apply to a petition that attaches a
state appellate court’s written order. Nor did the Court say that relation back would
operate any differently in habeas cases than it would in a typical civil case. As the
en banc opinion explained, Mayle did not adopt a habeas-specific meaning of Rule 15
that is less “capacious” than the standard civil definition. Pet. App. 22. “Rather,
relying on Rule 15’s application in ‘run-of-the-mine civil proceedings,’ Mayle simply
explained that relation back depends upon there being claims in the amended petition
that share a common core of operative facts with claims in the original habeas
petition.” Id. The general principle that “relation back requires a single course or
pattern of conduct—not factually and temporally unrelated conduct arising out of the
same underlying proceeding—showed why an entire criminal proceeding was too
broad to delineate an occurrence for relation back purposes.” Pet. App. 22-23 (internal
quotation omitted). Overall, Mayle did nothing more than apply “normal relation back
principles to determine relation back in a habeas case.” Pet. App. 22 n.12.
As the en banc opinion pointed out, the result here was not inconsistent with
the core holding of Mayle. Ross identified discrete legal errors in the original petition.
The relation back analysis was not an attempt to rely on his entire trial as the
transaction or occurrence, but solely those facts in the attached state court opinion
that provided greater detail about the specific claims listed in the petition.
Nevertheless, Petitioners offer three different ways in which “the lack of
14

guidance” in the en banc opinion triggers concerns similar to those expressed in
Mayle. Petition at 11-14. Specifically, they assert that the en banc opinion did not
provide enough clarity as to the meaning of “written instrument” or “all purposes”
under Civil Rule 10(c), and “attempt to set out” under Civil Rule 15(c). Id. However,
none of these supposed inadequacies provide a basis for this Court’s intervention. The
facts in Ross, as well as the specific holding in the en banc opinion, provide more than
sufficient guidance for the lower courts. Further, to the extent any further guidance
is necessary, the lower court can provide it in subsequent opinions.
Similarly, Petitioners’ underlying concerns about the en banc opinion’s lack of
guidance provide no cause for concern from this Court. In the first instance, as
mentioned before, Petitioners’ concerns are simply disguised merits arguments and
an attempt to secure review on the basis of error correction. In any event, none of
them provide any justifiable reason for this Court to grant review of the en banc
opinion.
First, Petitioners claim that, in relying upon the “for all purposes” language of
Civil Rule 10(c), the en banc opinion’s rule makes no distinction between whether an
attached state court opinion can be relied upon for relation back purposes as opposed
to for pleading purposes. Petition at 11. According to Petitioners, to comply with the
strict pleading requirement of Rule 2(c), there must be an incorporation requirement
for any exhibits attached to the petition. Id.
But the sufficiency of the factual allegations in a petition is not an issue in this
case. The petition was not dismissed for that reason. The central question here was
15

whether an amended petition can relate back to an arguably insufficiently pled
petition. As such, the lower court was clearly not offering an opinion as to whether
an attached state court opinion, without more, could be used to judge the sufficiency
of the allegations in the petition for the purposes of Habeas Rule 2(c).
Respondent’s argument thus conflates two distinct inquiries: pleading
requirements and relation back. These are different inquiries governed by different
standards. As Judge Bates reasoned in his dissent from the panel opinion, “Civil Rule
15(c) requires less for relation back than Habeas Rule 2 requires to survive
dismissal.” Pet. App. 90 (Judge Bates in dissent). The en banc opinion agreed, stating
that Civil Rule 15(c) “expressly contemplates that inadequately pleaded pleadings
may support relation back, thereby requiring an analysis of what the pleading set out
or attempted to set out, including in the habeas context.” Pet. App. 21 n.10 (emphasis
in original). As such, there is nothing in the en banc opinion to suggest that its holding
extended to whether the sufficiency of a pleading could be judged using an attached
state court opinion. To the contrary, that court made clear its understanding that the
standard for relation back is lower than the one for the sufficiency of the pleading.
Pet. App. 20 (“[A] petition need not be pleaded with sufficient particularity to support
relation back”).
In sum, there is nothing in the en banc opinion to suggest that it was
interpreting the “for all purposes” clause to allow an attached exhibit, without more,
to satisfy the Habeas Rule 2(c) pleading requirements.
Next, Petitioners argue that the en banc opinion’s failure to create a clear
16

workable standard for when a claim is “attempted to be set out” provides no limit for
what would qualify as an attempt, creating a boundless relation back standard.
Petition at 13. According to Petitioners, this incentivizes “the savvy habeas
petitioner” to sneak numerous new claims in by alleging broad undefined claims in
the petition and attaching a plethora of documents. Id. This concern is obviously not
justified from the en banc opinion. The court’s limited holding and the specific facts
in this case provide more than enough guidance as to what an attempt to set out a
claim looks like. Further, no “savvy habeas petitioner” would follow Petitioners’
misguided plan. To the contrary, a savvy habeas petitioner seeking the best chance
at relief will plead distinct claims in as much detail as possible, like Ross did in his
counseled amended petition. Indeed, as the en banc opinion notes, the failure to allege
specific and distinct legal claims would potentially result in dismissal. Pet. App. 2527 & 27 n.18.
Petitioners’ final concern is that the lack of specific guidance on what qualifies
as a “written instrument” creates a conflict with the Habeas Rules because it will
inspire petitioners to file petitions with numerous exhibits, hoping they can later use
those exhibits for relation back purposes. Petition at 13-14. There is no merit to this
contention, as it demonstrates a misunderstanding of a typical relation back analysis.
Under the en banc court’s approach, a habeas petitioner is unlikely to secure relation
back simply because a petition attaches a document that mentions certain facts.
Rather, a petitioner needs to plead the claim or at the very least make a discrete
attempt to plead the claim in the petition. If a pro se petition fails to make it plain
17

what claims, exactly, the petitioner is attempting to raise, it’s unlikely a petitioner
will be able to rely on that petition for relation back purposes.
Nor does the en banc opinion’s framework put an undue burden on district
courts. As the en banc opinion explains, district courts face no obligation to wade
unguided through a voluminous set of exhibits to determine whether relation back is
appropriate. Pet. App. 25. The burden is on the petitioner to establish the timeliness
of a claim. Id. The court will only be required to review those exhibits to which it has
been directed. Id. Rather than an unbounded review of the exhibits, the court has
“familiar remedies” at its disposal to put the petitioner to his burden: dismiss the
claim for failure to show relation back, decline to grant leave to amend, or request
supplemental briefing to better explain the relationship between the amended
petition and the original one—for example, by identifying the particular exhibit from
which the petitioner seeks to draw the operative facts. Id.
Overall, there is no inconsistency between the en banc opinion and Mayle, the
Civil Rules, or the Habeas Rules. Petitioners’ concerns with the en banc opinion are
unjustified and certainly do not provide any reason for this Court to grant certiorari.
III.

This case is not a good vehicle for this Court’s review
Outside of articulating a commonsense rule consistent with this Court’s prior

decisions as well as the Civil and Habeas Rules, the en banc opinion reached the
correct and equitable result. Ross listed out discrete ineffectiveness claims in the
original petition. In particular, one claim alleged counsel “failed to object to the
State’s use of expert witness.” Indisputably, the attached state court opinion provided
18

the operative facts for this claim. BIO App. 17 (counsel “fail[ed] to object to expert
testimony pertaining to pickpockets and distraction thefts where the witness was not
noticed as an expert”). No reasonable person can deny this combination gave
sufficient notice of this particular legal claim and its operative facts. See Pet. App. 17;
Pet. App. 86 (Judge Bates in dissent from original panel decision).
Separately, throughout the entire course of this litigation, Petitioners have
never articulated how relation back under these circumstances would prejudice them.
Without such a showing, there truly is no reason why this case provides a good vehicle
to address the issue of the appropriate relation back standard for a pro se petitioner
who relies on a state court decision attached to his petition in order to provide the
factual underpinnings of his claims.
Finally, this case is a poor vehicle because Ross arguably wins even under
Petitioners’ proposed incorporation rule. In a “request” Ross submitted with his
petition, he asked for leave to amend and stated, “Petitioner incorporates by reference
and fact, the attached Affidavit in support of this motion, and writ, with attached
exhibits.” BIO App. 1. This language sufficiently incorporates the attached state court
opinion.
But a pro se habeas petitioner should not be required to include talismanic
incorporation language in his petition to avail himself of relation back. Petitioners’
proposed incorporation rule, or the one advocated by the dissenting judges, is the type
of archaic and technical pleading requirement that should not be used to trap an
unwary pro se petitioner. See Slack v. McDaniel, 529 U.S. 473, 487 (2000); see also
19

Foman v. Davis, 371 U.S. 178, 181 (1962) (merits review is not to be avoided on basis
of “mere technicalities”). This Court should not grant review just to enforce this sort
of rigid and formulistic rule, which would have the effect of extinguishing Ross’s
ability to pursue habeas relief even though he filed a timely pro se petition with
specific and discernible legal claims.
C O N CLU S IO N
For the foregoing reasons, the petition for a writ of certiorari should be denied.

Dated October 6, 2020
Respectfully submitted,
Rene L. Valladares
Federal Public Defender
/s/Jonathan M. Kirshbaum
Jonathan M. Kirshbaum
Assistant Federal Public Defender

20

